No. ___________________
IN THE SUPREME COURT OF THE UNITED STATES
October Term
ALIJAH MITCHELL,
Petitioner,
MOTION FOR LEAVE TO
PROCEED IN FORMA
PAUPERIS

v.
UNITED STATES OF AMERICA,
Respondent.

NOW COMES Petitioner ALIJAH MITCHELL, pursuant to Rule 39 of the
Supreme Court Rules, and hereby requests the Court to permit the Petitioner to
proceed in forma pauperis.
In support of this motion, the Petitioner respectfully shows unto the Court
that:
1.

The United States Court of Appeals for the Fourth Circuit appointed

the undersigned counsel under the provisions of the Criminal Justice Act of 1964,
18 U.S.C. ยง3006A(d)(6), to represent the Petitioner in connection with her appeal
to the United States Court of Appeals for the Fourth Circuit.
2.

The United States District Court for the Eastern District of North

Carolina appointed counsel under the provisions of the Criminal Justice Act of

1964, 18 U.S.C. ยง3006A(d)(6), to represent the Petitioner in connection with her
representation in the United States District Court.
Respectfully submitted, this the 25h day of September, 2020.

/s/ Michael W. Patrick

LAW OFFICE OF MICHAEL W. PATRICK
100 Timberhill Place, Suite 127
Post Office Box 16848
Chapel Hill, North Carolina 27516
(919) 960-5848
mpatrick@ncproductslaw.com
Counsel of Record for Petitioner

